TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                     Internal Penetration Test of the
                        Internal Revenue Service’s
                      Networked Computer Systems



                                September 2005

                       Reference Number: 2005-20-144




      The Treasury Inspector General for Tax Administration (TIGTA) has
      designated this audit report as Limited Official Use (LOU) pursuant to
      Chapter III, Section 2 of the Treasury Security Manual (TD P 71-10) entitled,
      “Limited Official Use Information and Other Legends.”           Because this
      document has been designated LOU, it may only be made available to
      those officials that have a need to know the information contained within
      this report in the performance of their official duties. This report must be
      safeguarded and protected from unauthorized disclosure; therefore, all
      requests for disclosure of this report must be referred to the Disclosure
      Section within the TIGTA’s Office of Chief Counsel.




                                Limited Official Use

 Web Site      http://www.tigta.gov
                                      Limited Official Use
                  Internal Penetration Test of the Internal Revenue Service’s
                                Networked Computer Systems


                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Stephen Mullins, Director
Thomas Polsfoot, Audit Manager
Stasha S. Smith, Senior Auditor




                                  Limited Official Use
